App’x 1
Case: 19-3040 Document: 00713609533
Filed: 05/07/2020 Pages: 3
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1
CERTIFIED COPY
A True COPY
Teste:
/s/ Tille giblel
Deputy Clerk
of the United States
Court of Appeals for the
Seventh Circuit

Umte5 States Court of appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 2, 2020*
Decided April 6, 2020

*We have agreed to decide the case without
oral argument because the briefs and record
adequately present the facts and legal arguments,
and oral argument would not significantly aid the
court. FED. R. APP. P. 34(a)(2)(C).

App’x 2
Before
Diane P. Wood, Chief Judge
Joel M. Flaum, Circuit Judge
Amy C. Barrett, Circuit Judge
No. 19-3040
IRMA ROSAS
Plaintiff-Appellant,

v.

Appeal from the United States District
Court for the Northern District
of Illinois, Eastern Division.
No. l:19-cv-00005

R.K. KENZIE CORP., et al„
Defendants-Appellees.
John Roberts Blakey,
Judge.
ORDER

Irma Rosas brought a lawsuit against four of
her previous employers, all restaurants, which, she
alleged, discriminated against her based on her
race, ages, disability (carpel tunnel syndrome), in
violation of Title VII of the Civil Rights Act of 1964,

App’x 3
in violation of Title VII of the Civil Rights Act of
1964, 42 U.S.C. § 2000e-2, the Age Discrimination
in Employment Act, 29 U.S.C. §623, and the
Americans with Disabilities Act, 42 U.S.C. § 12112.
The district court repeatedly warned her that she
could not join unrelated claims against different
defendants, and then dismissed the suit after she
continued to regard those instructions. Because the
district court did not abuse its discretion in
dismissing the suit, we affirm.
At different points during a nine-month
period,

Rosas worked for Red Lobster, Olive

Garden, and two different McDonald’s stores. She
sued

all

four

discrimination,
accommodate

restaurants

for

employment

alleging that their failures to
her

carpal

tunnel

collectively

worsened her condition, and their race and age
discrimination caused mental distress. During the
proceedings,

the

district court

advised

Rosas

several times that she could not bring distinct
claims against different defendants in the same
lawsuit; twice, the court allowed her to amend her
complaint. After striking a third amended

App’x 4
complaint that Rosas filed without leave, the court
encouraged her to look for counsel to help cure the
joinder issue. When Rosas could not find an
attorney to take her case, the court ordered her to
make an appointment with the Hibbler Help Desk,
the court’s pro se assistance program.
After Rosas amended her complaint a fourth
time without addressing the joinder problem, the
defendants

moved

to

strike

or

dismiss

the

complaint. In a hearing that followed, Rosas
admitted that she had not followed the court’s
order to visit the pro se help desk. The court again
warned her that further attempts to join unrelated
claims in the same suit would result in dismissal:
“You need to find an attorney to help you respond
to these motions and correct the problems I’ve
identified for you. If you do not, your case will be
over.” The court then urged her to “go to the Help
Desk” and “either correct the problem or ... litigate
the motion to strike.”
Rosas responded by filing a fifth amended
complaint that mirrored her earlier submissions,
which prompted the court sua sponte to dismiss the

App’x 5
case with prejudice. Reprimanding Rosas for her
“stubborn determination to pursue improperly
joined claims,” the court found her conduct willful.
Because she refused to seek counsel, the court
concluded that allowing her another opportunity to
amend would be “pointless.”
On appeal, Rosas argues that she properly
joined

her

claims

because

each

instance

of

discrimination contributed to the same harm. In
support, she cites Diehl v. H.J. Heinz Co., 901 F.2d
73, 73-74 (7th Cir. 1990), which recognizes that joint
tortfeasors (who each aggravate the same physical
injury albeit at different times and in different
locations) may be sued in the same complaint
“despite the lack of concert between them.” But
Diehl was a tort case in which both defendants
contributed to the same injury. By contrast, Rosa’s
[sic] discrimination claims arose from distinct
adverse
employers.

employment
Unrelated

actions
claims

by

against

separate
different

defendants belong in different lawsuits. See FED.
R. CIV. P. 20; George v. Smith, 507 F.3d 605, 607
(7th Cir. 2007).

App’x 6
Rosas also argues the district court, acting
sua sponte, should have severed her claims or
dismissed the complaint without prejudice. True,
misjoinder alone is not grounds for dismissal, FED.
R. CIV. P. 21; UWM Student Ass’n v. Lovell, 888
F.3d 854, 864 (7th Cir. 2018), but the district court
dismissed her case based on her repeated failure to
cure her complaint’s deficiencies. Judge Blakey
warned Rosas, over and over, that she courted
dismissal of her case if she did not respond to the
joinder problem. Even pro se litigants must follow
procedural rules. Cady v. Sheahan, 467 F.3d 1057,
1061

(7th

Cir.

2006).

Given

Rosas’s

willful

noncompliance with its instructions, the court acted
well within its discretion to dismiss her case with
prejudice. See FED. R. CIV. P. 41(b); Salata v.
Weyerhaeuser Co., 757 F.3d 695, 699-700 (7th Cir.
2014).
We

have

considered

Rosas’s

remaining

arguments, and none has merit.
AFFIRMED

App’x 7
Case: l:19-cv-00005 Document #: 100 Filed:
09/16/19 Page 1 of 2 PagelD #:1772
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois CM/ECF LIVE, Ver 6.3.1
Eastern Division
Irma Rosas
Plaintiff,
v.
Case No.: l:19-cv-00005
Honorable John Robert Blakey
RK Kenzie Corporation, et al.
Defendant.

NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on
Monday, September 16, 2019:
MINUTE entry before the Honorable John
Robert

Blakey:

On

6/25/2019,

after

advising

Plaintiff on numerous occasions that she may not
join unrelated claims against unrelated parties in a
single complaint and that if she insisted on
pursuing a complaint that did so, her case would be

App’x 8
dismissed, the Court gave Plaintiff one final
opportunity to amend her complaint to assert a
single, core claim. See [79]. The Court warned
Plaintiff (again) that if she failed to cure this
deficiency, the Court would summarily dismiss her
case. Id. Despite this, on 7/15/19, Plaintiff filed a
fourth amended complaint [80], which, like the
other prior versions, asserted unrelated claims
against unrelated parties in violation of George v.
Smith, 507 F.3d 605, 607 (7th Cir. 2007).
Defendants filed another round of motions to
dismiss, and the Court ordered Plaintiff to respond
to the motions or file a motion for leave to file a
fifth

amended

complaint

(with

a

proposed

complaint attached) by 9/5/19. Plaintiff opted for
the latter, and filed a motion for leave to amend yet
again.

But Plaintiffs proposed fifth amended

complaint, like the prior versions, still asserts
stubborn

determination

to

pursue

improperly

joined claims, which the Court has told Plaintiff
numerous times she may not pursue. At this point,
based upon the entire record, the Court finds as a
factual matter that Plaintiffs failure to comply

App’x 9
with the rules of procedure and this Court’s orders
is willful. Plaintiff has no intention of revising her
pleading to comply with this Court’s prior orders
and no intention of curing the deficiencies this
Court has noted numerous times. Worse still,
Plaintiff has refused to make efforts to secure
counsel and refused to take advantage of the
Court’s Pro se Assistance Program. In fact, Plaintiff
admitted in court on 7/25/2019 that she failed to
even visit the Help Desk to seek an appointment,
despite the Court’s order recommending that she do
so. And she admitted that she had made no efforts
to find counsel on her own. Such actions bolster the
Court’s conclusion today that giving Plaintiff more
time or an additional opportunity to amend would
be pointless. Accordingly, and consistent with the
Court’s prior orders, Plaintiffs motion for leave to
file a fifth amended complaint [92] is denied, and
this case is dismissed. Defendants’ motion to strike
[81], [83], [85] and motion to dismiss [87] are
denied as moot. The 9/17/19 Notice of Motion date
is stricken, and the parties need not appear. Civil
case terminated. Mailed notice(gel,)

App’x 10
Case: l:19-cv-00005 Document#: 100 Filed:
09/16/19 Page 2 of 2 PagelD #:1772

ATTENTION: This notice is being sent pursuant
to Rule 77(d) of the Federal Rules of Civil
Procedure or Rule 49(c) of the Federal Rules of
Criminal Procedure. It was generated by CM/ECF,
the automated docketing system used to maintain
the civil and criminal dockets of this District. If a
minute order or other document is enclosed, please
refer to it for additional information.
For scheduled events, motion practices, recent
opinions and other information, visit our web site
at www.ilnd.uscourts.sov.

App’x 11
Case: 19-3040 Document: 00713609535
Filed: 05/07/2020 Pages: 1
CERTIFIED COPY
A True COPY
Teste:
/s/ [illegiblel
Deputy Clerk
of the United States
Court of Appeals for the
Seventh Circuit

Umte5 States Court of Xppeafs
For the Seventh Circuit
Chicago, Illinois 60604
April 29, 2020*
Before
Diane P. Wood, Chief Judge
Joel M. Flaum, Circuit Judge
Amy C. Barrett, Circuit Judge
No. 19-3040
IRMA ROSAS,
Plaintiff-Appellant,

App’x 12

v.

Appeal from the United States District
Court for the Northern District
of Illinois, Eastern Division.
No. l:19-cv-00005

R.K. KENZIE CORP., et al„
Defendants-Appellees.
John Robert Blakey,
Judge.
ORDER
Plaintiff-appellant

filed

a

petition

for

rehearing and rehearing en banc on April 14, 2020.
No judge1 in regular active service has requested a
vote on the petition for rehearing en banc, and all
members of the original panel have voted to deny
panel rehearing. The petition for rehearing en banc
is therefore DENIED.

1 Judge Amy J. St. Eve did not participate in the
consideration of this matter.

App’x 13
No. 19-3040
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
IRMA ROSAS,
)
Plaintiff-Appellant,)

v.

)
)
)
)
)
)
)

Appeal from the United
States District Court for
the Northern PlaintiffDistrict of Illinois,
Eastern Division
NO. 19-CV-0005

R.K. KENZIE
CORPORATION, )
et al.,
)
Defendants)
Appellees.
)

PLAINTIFF-APPELLANT’S MOTION TO FILE
ELECTRONICALLY
NOW COMES pro se Plaintiff-Appellant
Irma Rosas and files this motion requesting
permission to

file

electronically pursuant to

Federal Rule of Appellate Procedure 25(a)(2)(B)(ii)
in the above titled matter and in support states as
follows.

App’x 14
By:
IRMA ROSAS
Plaintiff-Appellant
6333 South Lavergne Avenue
Chicago, Illinois 60638
(773) 627-8330
irmarosaswebsite@gmail.com
INTRODUCTION
1.

Appellees

filed

their

brief

on

February 02, 2020. (Docs. 18, 19).
2.

On February 24, 2020, Ms. Rosas filed

a motion to extend time time to file a reply brief.
The motion read, “[c]urrently, that reply brief is
due

on

March

04,

2020.

Plaintiff-Appellant

requests a 30-day extension to and including April
4, 2020.” (Doc. 21).
3.

That same day, this Court granted the

motion. (Doc. 22).
4.

Ms. Rosas understood that the Court

had granted the motion until April 04, 2020 and
since that date falls on a Saturday, she concluded
that the reply brief was due the next business day
on April 06, 2020.

App’x 15
5.

On March 21, 2020, Ms. Rosas sent

this Court another motion for an extension of time
certified

via

(Tracking

mail.

70190700000115110434).

(See

Exhibit

No.
A).

On

March 23, 2020, the U.S.P.S. Tracking website
indicated that the motion was available for pick-up.
6.

Ms. Rosas, still susceptible to illness,

ventured out of the house to file the motion inperson on March 30, 2020. (Doc. 23). Ms. Rosas
depends on public transportation to get to the
courthouse. (See Exhibit B).
7.

On April 02,

2020,

the

U.S.P.S.

Tracking website indicated that the motion mailed
on March 21, 2020 had been “Delivered, Individual
Picked Up at Postal Facility 04/02/2020 8:10am”.
(See Exhibit A).
8.

Later that day on April 2nd, Ms. Rosas

received the order denying her motion for an
extension of time to file a reply brief in the mail.
(Doc. 24). The order also indicated that her reply
was “due on March 25, 2020, and this case is now
ready for disposition.” (Id.).
9.

Ms. Rosas, having just been released

App’x 16
from the hospital and still recuperating from flu­
like symptoms (possibly COVID-19), concluded that
her motion had been fully granted. (Docs. 22, 23,
28).
ARGUMENT
10.

Federal Rule of Appellate Procedure

25(a)(2)(B)(ii) provides “[a] person not represented
by an attorney ... to file electronically only if
allowed by court or by local rule; and may be
required to file electronically only by court order, or
by a local rule that includes reasonable exceptions.”
Fed. R. App. P. 25 (a)(2)(B)(ii).
11.

On

April

06,

2020,

Plaintiff-

Appellant Irma Rosas, (“Ms. Rosas”) boarded the
Orange-CTA Rail at Midway Airport. According to
the Ventra Transit History for the Ventra account
she used that day, she boarded at 10:14:49 AM.
(See Exhibit B).
12.

It follows that Ms. Rosas filed her

motion (Doc. 28) between 10:14:49 AM and
11:16:18 AM, when she again boarded the OrangeCTA Rail in the Loop at Washington/Wabash to
return home. (Id.).

App’x 17
13.

Before walking back home, however,

she deposited money into her account at the
Orange-CTA Rail at Midway Airport. The time was
11:48:21AM.
14.

As of April 09, 2020, the PACER

website indicated several inconsistencies.
15.

First, the motion mailed on March 21,

2020 and received on March 23rd was never filed.
(Doc. 28 at ft 5, 7). (See Exhibits C).
16.

On

April

06,

2020,

the

Nonprecedential Disposition PER CURIAM was
filed at 12:57 PM. (Doc. 25). The Final Judgment
was filed at 01:04 PM. (Doc. 26) .9
17.

Ms.

Rosas’

Motion

for

Reconsideration: Extension of Time to File Reply
Brief was entered on April 06, 2020 at 02:02 PM.
(Doc. 28). (Id).
18.

Ms. Rosas filed her timely Motion for

Reconsideration

before

the

Nonprecedential

Disposition and Final Judgment.
19.

The Motion for Reconsideration:

9 Both documents were neither signed or certified. Brown v.
Fifth Third Bank, 730 F.3d 698 (7th Cir. 2013).

App’x 18
Extension of Time to File Reply Brief was denied
on April 09, 2020 at 08:41 AM.
20.

Given the irregular events, Ms. Rosas

requests permission to file electronically.10

CONCLUSION
Ms. Rosas respectfully requests that the
Motion to File Electronically be granted so that she
may file a reply brief in this instant matter.
Dated: April 10, 2020
/si
IRMA ROSAS
6333 South Lavergne Avenue
App’x 22
Chicago, Illinois 60638
(773) 627-8330
irmarosaswebsite@gmail.com
CERTIFICATE OF SERVICE
I certify that on April 10, 2020, the foregoing
Motion to File Electronically was filed in the Office

10 By requesting permission to file electronically, Ms. Rosas,
in no way, concedes to the aforementioned irregularities at
the Seventh Circuit.

r

App’x 19
of the Clerk, United States Court of Appeals,
Seventh Circuit, Everett McKinley Dirksen United
States Courthouse, 219 South Dearborn Street,
Room 2722, Chicago, Illinois 60604. I further
certify that counsel of record in this appeal are
CM/ECF users and will be served via the CM/ECF
system.

Dated: April 10, 2020
/s/
IRMA ROSAS
6333 South Lavergne Avenue
Chicago, Illinois 60638
(773) 627-8330
irmarosaswebsite@gmail.com

